     Department of Homeland Security





     The City of Macon, Georgia, Successfully Managed
     FEMA Public Assistance Funds Awarded for Severe
                      Storms in May 2008
               FEMA Disaster Number 1761-DR-GA




DA-13-14                                         April 2013

                                         D.FFICE OF INSPECTOR GF:NF.RAL
                                               Department u f Homeiand Socunly




                                                    APR        4 2013

MEMORANDUM FOR:                          Major P. (Phil) May
                                         Reg        I Ad'Jl"
                                                      Ad'Jl"'7'
                                                            '7'
                                                                                  ent Agency

FROM:                                              ,
                                         Assista t Inspector G neral
                                         Office of Emergency anagement Oversight

SUBJECT:                                 The City of Macon, Georgia, Successfully Mrmaged
                                         FEMA Public Assistance Funds Awarded for Severe
                                         Storms in May 2008
                                         FEMA Disaster Number 1761-DR-GA
                                         Audit Report Number DA-13-14

We audited Public Assistance funds awarded to the City of Macon, Georgia (City) (FIPS Code
021-49000-00). Our audit objective was to determine whether the City accounted for and
expended Federal Emergency Management Agency (FEMA) grant funds according to Federal
regulations and FEMA guidelines,

The City received a Public Assistance award of $3.9 million from the Georgia Emergency
Management Agency (State), a FEMA grantee, for damages resulting from severe storms and
tornadoes, which occurred in May 2008. The award provided 7S percent FEMA funding for
debris removal activities and emergency protective measures. The award consisted of Slarge
projects and 17 small projects!

We audited three large projects with awards totaling $3.S million as shown in table 1. The
audit covered the period May 11, 2008, to August 2, 2012, during which the City claimed $3.5
million under the projects included in our scope. At the time of our audit, the City had
completed work on all large projects, but had not submitted a final claim to the state.




1 Fi'de ro l regul ation, in effl'Cl .t the time of the di
                                                        di"" 5t
                                                             5t~~ r , ~ t t m- I~rge project threshold . t $60,900,
                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



                            Table 1. Schedule of Projects Audited
                           Project         Amount           Amount
                           Number          Awarded          Claimed
                              8              $ 2,727,897 $ 2,727,897
                             217                 466,265         466,265
                             284                 332,598         332,598
                            Total            $ 3,526,760    $ 3,526,760

We conducted this performance audit between August 2012 and February 2013 pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based upon our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based upon our audit objective. To conduct
this audit, we applied the statutes, regulations, and FEMA policies and guidelines in effect at
the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed City,
State, and FEMA personnel; reviewed the City’s procurement policies and procedures; reviewed
applicable Federal regulations and FEMA guidelines; and performed other procedures
considered necessary to accomplish our audit objective. We did not assess the adequacy of the
City’s internal controls applicable to its grant activities because it was not necessary to
accomplish our audit objective. However, we gained an understanding of the City’s method of
accounting for disaster-related costs and its policies and procedures for administering the
activities provided for under the FEMA award.


                                       RESULTS OF AUDIT

The City successfully managed Public Assistance grant funds for the three projects included in
our review. City officials generally accounted for and expended FEMA funds according to
Federal grant regulations and FEMA guidelines.


                    DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with City, FEMA, and Region officials on February 4, 2013.
Because the audit did not identify issues requiring further action from FEMA, we consider this
audit closed.

www.oig.dhs.gov                                                                         DA-13-14
                                               2

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Major contributors to this report are David Kimble, Eastern Region Audit Director;
William (John) Johnson, Audit Manager; and Calbert Flowers, Auditor.

Please call me with any questions at (202) 254-4100, or you staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                                                                        DA-13-14
                                               3

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                                                                        Appendix
                                      Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-044)

State
Director, Georgia Emergency Management Agency
State Auditor, Georgia

Sub grantee
Interim Director of Finance, City of Macon

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                                                          DA-13-14
                                              4

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
